PROOF OF SERVICE
I Melissa Johnson, declare on February 18, 2021 as
required by Supreme Court Rule 29 I have served the
enclosed PETITION FOR A WRIT OF CERTIORARI •
on each party to the above proceeding or that party’s
counsel, and on every other person required to be
served, by depositing an envelope containing the
above documents in the United States mail properly
addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days. The names
and addresses of those served are as follows:
Attorneys for JP Morgan Chase Bank
National Association:
Nicole M Goodwin
goodwinn@gtlaw.com
Greenberg Traurig, LLP
2375 E. Camelback Road, Suite 700
Phoenix, Arizona 85016
/s/ Melissa Johnson
Melissa Johnson
mjandassociates9@gmail.com
1668 Alta Vista Road
Bullhead City, Arizona
96442

MAR - s 2021

